No. 19-1094

In the Supreme Court of the United States
JAMES MILTON DAILEY,
Petitioner,
v.
STATE OF FLORIDA,
Respondent.
CERTIFICATE OF SERVICE
I, Charles A. Rothfeld, counsel for Petitioner and a member of the Bar of this Court,
certify that on this 16th day of June, 2020, I caused a copy this Reply Brief for
Petitioner to be served by electronic means on the following:
Ashley Moody
Amit Agarwal
Kevin Golembiewski
Timothy A. Freeland
Stephen D. Ake
Office of the Attorney General
State of Florida
PL-01 The Capitol
Tallahassee, Florida 32399-1050
(850) 414-3681
Amit.agarwal@myfloridalegal.com
I further certify that all parties required to be served have been served.
/s/ Charles A. Rothfeld
Charles A. Rothfeld

